No. 19-930
In the Supreme Court of the United
__________________

States

CIC SERVICES, LLC, Petitioner,
v.
INTERNAL REVENUE SERVICE, ET AL., Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
__________________
BRIEF OF THE ALABAMA CAPTIVE INSURANCE ASSOCIATION, INC.,
ARIZONA CAPTIVE INSURANCE ASSOCIATION, INC., CAPTIVE INSURANCE
COMPANIES ASSOCIATION, INC., CONNECTICUT CAPTIVE INSURANCE
ASSOCIATION, DELAWARE CAPTIVE INSURANCE ASSOCIATION, INC.,
CAPTIVE INSURANCE COUNCIL OF THE DISTRICT OF COLUMBIA, INC.,
GEORGIA CAPTIVE INSURANCE ASSOCIATION, INC., HAWAII CAPTIVE
I NSURANCE C OUNCIL C ORPORATION , K ENTUCKY C APTIVE
ASSOCIATION, INC., MISSOURI CAPTIVE INSURANCE ASSOCIATION,
MONTANA CAPTIVE INSURANCE ASSOCIATION, INC., NEVADA CAPTIVE
INSURANCE COUNCIL, CAPTIVE INSURANCE GROUP OF NEW JERSEY,
NORTH CAROLINA CAPTIVE INSURANCE ASSOCIATION, OKLAHOMA
CAPTIVE INSURANCE ASSOCIATION, PUERTO RICO INTERNATIONAL
INSURERS ASSOCIATION, SELF-INSURANCE INSTITUTE OF AMERICA,
INC., SOUTH CAROLINA CAPTIVE INSURANCE ASSOCIATION, INC.,
TENNESSEE CAPTIVE INSURANCE ASSOCIATION, INC., TEXAS CAPTIVE
INSURANCE ASSOCIATION, UTAH CAPTIVE INSURANCE ASSOCIATION,
U.S. VIRGIN ISLANDS CAPTIVE INSURANCE ASSOCIATION, AND
VERMONT CAPTIVE INSURANCE ASSOCIATION AS AMICI CURIAE IN
SUPPORT OF PETITIONER

__________________

WILLIAM YOUNG WEBB
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills Boulevard
Aberdeen, NC 28315
(910) 944-9555

K. SCOTT HAMILTON
Counsel of Record
KEVIN M. DOHERTY
TONY D. GREER
DICKINSON WRIGHT PLLC
500 Woodward Avenue, Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com
Counsel for Amici Curiae

July 22, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
STATEMENT OF INTEREST . . . . . . . . . . . . . . . . . . 1
BACKGROUND ON INSURANCE REGULATION
AND CAPTIVE INSURANCE COMPANIES . . . 5
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 9
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

Impact of Notice 2016-66 on the Captive
Insurance Industry:. . . . . . . . . . . . . . . . . . . . 10
A. Notice 2016-66 imposes a heavy burden
on the public and causes ongoing
irreparable harm to the captive insurance
industry and its stakeholders . . . . . . . . . 10
B. Notice 2016-66 has a chilling effect on the
captive insurance industry . . . . . . . . . . . 19

II.

The APA should apply to Notice 2016-66, and
because there was no meaningful opportunity
to comment on the proposed rule through the
submission of written data, views, or
arguments, Notice 2016-66 should be
declared invalid . . . . . . . . . . . . . . . . . . . . . . . 21
A. The APA serves as a conduit for public
input that permits agencies to craft the
wisest rules. . . . . . . . . . . . . . . . . . . . . . . . 21

ii
B. While recognizing that not all § 831(b)
transactions are abusive, Notice 2016-66
arbitrarily and capriciously applies to
essentially all § 831(b) transactions, even
though the IRS admits its lack of
information regarding the captive
insurance industry . . . . . . . . . . . . . . . . . . 26
III.

Information gathering is a phase of tax
administration procedure that occurs before
the assessment of a tax, and the AIA should
not apply . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A U.S. Captive Domiciles . . . . . . . . App. 1
Appendix B Letter from the State of Utah
Insurance Department to the
Honorable John Koskinen dated
January 27, 2017 . . . . . . . . . . . . . App. 3
Appendix C Audit Document Request . . . . . . . App. 7

iii
TABLE OF AUTHORITIES
CASES
Am. Mining Cong. v. Mine Safety & Health Admin.,
995 F.2d 1106, 302 U.S. App. D.C. 38
(D.C. Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . 23, 25
Avrahami v. Comm’r,
149 T.C. 7 (T.C. Aug. 21, 2017) . . . . . . . . . . . . . 14
CIC Servs., LLC v. IRS,
2017 WL 5015510 (E.D. Tennessee). . . . . . . . . . 30
CIC Servs., LLC v. IRS,
925 F.3d 247 (6th Cir. 2019). . . . . . . . . . 30, 31, 32
CIC Servs., LLC v. IRS,
936 F.3d 501 (6th Cir. 2019). . . . . . . . . . . . . . . . 30
Chrysler Corp. v. Brown,
441 U.S. 281 (1979). . . . . . . . . . . . . . . . . . . . 22, 23
Dep’t of Homeland Sec. v. Regents of the Univ.
of Cal., 591 U.S. ___ (2020). . . . . . . . . . . . . . . . . 31
Direct Mktg. Ass’n v. Brohl,
575 U.S. 1 (2015). . . . . . . . . . . . . . . . . . . . . . . 9, 31
Dismas Charities, Inc. v. United States Department
of Justice, 401 F.3d 666 (6th Cir.2005) . . . . 23, 26
Enochs v. Williams Packing & Nav. Co.,
370 U.S. 1 (1962). . . . . . . . . . . . . . . . . . . . . . . . . 30
Fertilizer Inst. v. United States Envt’l Prot. Agency,
935 F.2d 1303 (D.C. Cir. 1991) . . . . . . . . . . . . . . 24

iv
First Nat’l Bank v. Sanders,
946 F.2d 1185 (6th Cir. 1991). . . . . . . . . . . . 23, 24
Friedrich v. Sec’y of Health & Human Servs.,
894 F.2d 829 (6th Cir. 1990). . . . . . . . . . . . . . . . 22
General Motors Corp. v. Ruckelshaus,
742 F.2d 1561 (D.C. Cir. 1984) . . . . . . . . . . . . . . 22
Gregory v. Helvering,
69 F.2d 809 (2d Cir. 1934) . . . . . . . . . . . . . . . . . 10
Mayo Found. for Med. Educ. & Research v.
United States, 562 U.S. 44 (2011) . . . . . . . . . . . . 9
Nat’l Fed. of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012). . . . . . . . . . . . . . . . . . . . 30, 31
Nat’l Mining Ass’n v. McCarthy,
758 F.3d 243 (D.C. Cir. 2014) . . . . . . . . . . . . . . . 23
Ohio Coal Ass’n v. Perez,
S.D. Ohio No. 2: l 4-cv-2646, 2016 U.S. Dist.
LEXIS 78655 (June 16, 2016) . . . . . . . . . . . . . . 23
Perez v. Mortg. Bankers Ass’n,
575 U.S. 92, 135 S. Ct. 1199 (2015) . . . 3, 9, 21, 24
Reserve Mechanical Corp. v. Comm’r,
T.C. Memo. 2018-86 (T.C. June 18, 2018) . . . . . 14
Summa Holdings, Inc. v. Comm’r of Internal
Revenue, 848 F.3d 779 (6th Cir. 2017) . . . . . . . . 10
Syzygy Insurance Co., Inc., et al. v. Comm’r,
T.C. Memo. 2019-34 (April 10, 2019) . . . . . . . . . 14

v
United States v. Picciotto,
875 F.2d 345 (D.C. Cir. 1989) . . . . . . . . . . . . . . . 24
STATUTES
5 U.S.C. § 551(4). . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
5 U.S.C. § 551(5). . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
5 U.S.C. § 553 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
5 U.S.C. § 553(b). . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
5 U.S.C. § 553(b)(A) . . . . . . . . . . . . . . . . . . . . . . . . . 21
5 U.S.C. § 553(b)(B) . . . . . . . . . . . . . . . . . . . . . . . . . 21
5 U.S.C. § 553(c) . . . . . . . . . . . . . . . . . . . . . 3, 9, 24, 25
5 U.S.C. § 553(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 21
5 U.S.C. § 702 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
5 U.S.C. § 706(2)(D) . . . . . . . . . . . . . . . . . . . . . . . . . 21
8 U.S.C. § 1252(b)(9) . . . . . . . . . . . . . . . . . . . . . . . . 31
15 U.S.C. § 1012 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
26 U.S.C. § 831(b). . . . . . . . . . . . . . . . . . . . . . . passim
26 U.S.C. § 6111 . . . . . . . . . . . . . . . . . . . . . . . . . 30, 31
26 U.S.C. § 6112 . . . . . . . . . . . . . . . . . . . . . . . . . 30, 31
26 U.S.C. § 6671(a). . . . . . . . . . . . . . . . . . . . . . . . . . 31
26 U.S.C. § 7421(a). . . . . . . . . . . . . . . . . . 9, 29, 30, 31
Consolidated Appropriations Act of 2018,
Pub. L. 115–141 . . . . . . . . . . . . . . . . . . . . . . . . . 16

vi
PATH Act, 129 Stat. 3106-08. . . . . . . . . . . . . . . . . . 16
OTHER AUTHORITIES
C. Anastopoulo, “Taking No Prisoners: Captive
Insurance as an Alternative to Traditional or
Commercial Insurance,” 8 Ohio St. Entrep. Bus.
L.J. 209 (2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
“Internal Revenue Service, Abusive tax shelters,
trusts, conservation easements make IRS’ 2019
‘Dirty Dozen’ list of tax scams to avoid” (March
19, 2019), available at www.irs.gov/newsroom/
abusive-tax-shelters-trusts-conservationeasements-make-irs-2019-dirty-dozen-list-of-taxscams-to-avoid. . . . . . . . . . . . . . . . . . . . . . . . 12, 16
IRS, Instructions for Form 8886, at 7, available at
https://www.irs.gov/pub/irs-pdf/i8886.pdf . . 11
IRS takes next step on abusive micro-captive
transactions; nearly 80 percent accept
settlement, 12 new audit teams established,
available at www.irs.gov/newsroom/irs-takesnext-step-on-abusive-micro-captive-transactionsnearly-80-percent-accept-settlement-12-newaudit-teams-established . . . . . . . . . . . . . . . . . . . 12
“IRS unveils ‘Dirty Dozen’ list of tax scams for 2020;
Americans urged to be vigilant to these threats
during the pandemic and its aftermath,”
available at https://www.irs.gov/newsroom/irsunveils-dirty-dozen-list-of-tax-scams-for-2020americans-urged-to-be-vigilant-to-these-threatsduring-the-pandemic-and-its-aftermath . . . . . . 16

vii
IRS update on “micro-captive insurance
transactions,”
available
at
home.kpmg/us/en/home/insights/2020/01/t
nf-irs-update-on-micro-captive-insurancetransactions.html . . . . . . . . . . . . . . . . . . . . . . . . 12
Joint Committee on Taxation, Technical
Explanation of the Revenue Provisions of the
Protecting Americans from Tax Hikes Act of
2015, House Amendment #2 to the Senate
Amendment to H.R. 2029 (Rules Committee Print
114-40), (JCX-144-15), December 17, 2015 . . . . 15
“June 15, 2017 letter from SIIA to Treasury
Secretary Mnuchin,” available at
http://files.constantcontact.com/9d218c3c001/0
5dafb54-5f9b-4fba-b08e-512c318af2cb.pdf. . 11, 12
Letter from SIIA to the IRS, dated October 17, 2016,
available at
https://www.siia.org/files/0f5af4a0-5c12-4dc5aa0e-b3cd6d9cfd08.pdf . . . . . . . . . . . . . . . . . . . . 28
Notice 2015-74, available at www.irs.gov/pub/irsdrop/n-15-74.pdf . . . . . . . . . . . . . . . . . . . . . . 28, 29
Notice 2016-66, available at
https://www.irs.gov/pub/irs-drop/n-16-66.
pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
“Once Scrutinized, an Insurance Product Becomes a
Crisis Lifeline,” available at
https://www.nytimes.com/2020/03/20/yourmoney/coronavirus-insurance-smallbusiness.html . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

viii
“Post-COVID-19, Some Businesses May Look to
Captives for BI Solutions, Observers Say,”
available at https://media.cicaworld.com/wpcontent/uploads/2020/05/Post-COVID-19-SomeBusinesses-May-Look-to-Captives-for-BISolutions-Observers-Say.pdf . . . . . . . . . . . . 18, 19
“SIIA calls for review of IRS’ ‘activities’ in response
to Executive Order for regulatory relief,”
available at
http://www.captiveinsurancetimes.com/captiv
einsurancenews/article.php?article_id=6905 . . 17
SIIA Comment Letter to the Acting Secretary of the
Treasury and the IRS Commissioner, dated
January 30, 2017, available at
https://www.siia.org/files/News/Notice_201666_-_SIIA_Comment_Letter_-_Final_.pdf . . . . . 28
SIIA Letter to Treasury Secretary Mnuchin
Regarding Executive Order 13789 –Identifying &
Reducing Tax Regulatory Burdens, Dated June
15, 2020, available at
http://files.constantcontact.com/9d218c3c001/0
5dafb54-5f9b-4fba-b08e-512c318af2cb.pdf. . 13, 14
“SRS Charts the Total Number of Active Captives
for 2018,” available at www.captive.com/news/
2019/02/25/srs-charts-the-total-number-ofactive-captives-for-2018 . . . . . . . . . . . . . . 1, 13, 20

1
The above captive insurance associations
(collectively, the “Captive Associations”) submit this
brief as amici curiae in support of the Petitioner, CIC
Services, LLC.1
STATEMENT OF INTEREST
The aforementioned Captive Associations (the
“Amici”) are unaffiliated trade organizations
representing the interests of their respective members
regarding the captive insurance industry.
The
membership of the Captive Associations primarily
includes captive insurance companies and related cells
(each being referred to herein as a “captive”) and their
owners, captive insurance managers, attorneys,
actuaries, investment managers, certified public
accountants, banks, financial institutions, and others.
Together, these Captive Associations have thousands
of members, including over 3,200 captive insurance
companies and over 1,800 related cells (for a total of
over 5,000 captives). See “U.S. Domestic Captive
Domiciles as of Year-End 2018,” attached hereto as
Appendix A; and “SRS Charts the Total Number of
Active Captives for 2018,” available at
www.captive.com/news/2019/02/25/srs-charts-the-totalnumber-of-active-captives-for-2018.
All of these

1

Pursuant to Rule 37.6, counsel for the Amici states that no
counsel for a party authored this brief in whole or in part, and no
party or counsel for a party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than the Amici, their members, or their counsel made
a monetary contribution to its preparation or submission. Counsel
for the Amici provided timely notice of the Amici’s intent to file
this brief, and all parties have consented to its filing.

2
Captive Associations promote the compliant and
solvent operation of captives through professional
education, networking events, and engagement in
legislative and regulatory affairs.
In addition to the state and United States territory
based Captive Associations, two members of the Amici,
the Captive Insurance Companies Association, Inc.
(“CICA”), and the Self-Insurance Institute of America,
Inc. (“SIIA”), are national, not for profit, member-based
trade associations. Like the other Amici, CICA and
SIIA are dedicated to the advancement of the captive
insurance industry, and their membership includes
self-insured entities, third-party administrators,
captives, captive owners and managers, excess/stoploss insurance carriers, and industry service providers
(ranging from small professional firms to large
commercial insurers and brokers). These members
develop industry best practices, receive and
disseminate education on industry issues, and engage
policymakers and regulators on a range of subjects
relevant to the effective functioning of captive
insurance programs and the nation’s self-insurance
systems, including self-funded health plans, workers’
compensation plans,
and property and liability
programs.
The Amici file this brief to request that the Court
overturn the decision from the Sixth Circuit Court of
Appeals. At a minimum, the Amici ask the Court to
consider what the Internal Revenue Service (“IRS”) did
not address, namely the detrimental impact of IRS
Notice 2016-66 (“Notice 2016-66”) on captives making
the election under 26 U.S.C. § 831(b) (“§ 831(b)”) and

3
the captive insurance industry as a whole. The
Administrative Procedures Act (“APA”) requires an
agency to allow interested persons an opportunity to
participate in the rulemaking through the submission
of written data, views, or arguments. See 5 U.S.C.
§ 553(c). Further, this Court has held that an agency
is obligated to respond to significant comments. See
Perez v. Mortg. Bankers Ass’n, 575 U.S. 92, 135 S. Ct.
1199, 1203 (2015). However, the IRS did not allow
interested persons a meaningful opportunity to
participate in the making of Notice 2016-66, as
required by the APA. Although Notice 2016-66
included a mechanism for the public to comment on
how micro-captive transactions “might be addressed in
[future] published guidance,” those comments were
requested on or before the day taxpayers originally
were required to report under Notice 2016-66. Thus,
any future published guidance would be of no use to
taxpayers required to comply before that deadline.
Further, the IRS did not respond to any significant
comments or concerns.
Finally, the Amici contend that Notice 2016-66
relates to the reporting of tax-related information, and
not the assessment or collection of a tax. Therefore,
the Anti-Injunction Act (“AIA”) should not apply and
prohibit the Amici from pursuing the relief set forth
herein.
Consequently, the Amici request the Court to
consider the following:
I.
Impact of Notice 2016-66 on the Captive
Insurance Industry:

4
A. Notice 2016-66 imposes a heavy burden on
the public and causes ongoing irreparable harm to the
captive insurance industry and its stakeholders; and
B. Notice 2016-66 has a chilling effect on the
captive insurance industry.
II.
The APA should apply to Notice 2016-66, and
because there was no meaningful opportunity to
comment on the proposed rule through the submission
of written data, views, or arguments, Notice 2016-66
should be declared invalid.
A.
The APA serves as a conduit for public
input that permits agencies to craft the wisest rules;
and
B. While recognizing that not all § 831(b)
transactions are abusive, Notice 2016-66 arbitrarily
and capriciously applies to essentially all § 831(b)
transactions, even though the IRS admits its lack of
information regarding the captive insurance industry.
III.
Information gathering is a phase of tax
administration procedure that occurs before the
assessment of a tax, and the AIA should not apply.
The Amici offer no opinion on any other particular
facts or structure of any insurance program at issue or
otherwise, and fully support appropriate efforts by the
IRS to curtail those transactions which are actually
abusive that serve to undermine the industry.

5
BACKGROUND ON INSURANCE
REGULATION AND CAPTIVE INSURANCE
COMPANIES
Insurance Regulation
State-based insurance regulation has a more than
100-year history of success in the United States.
Congress, in passing the McCarran-Ferguson Act of
1945, exclusively reserved to the States the power to
regulate insurance.
The States, the District of
Columbia, and several territories each participate in
this national system of state-based regulation.
The McCarran-Ferguson Act states that “No Act of
Congress shall be construed to invalidate, impair, or
supersede any law enacted by any State for the purpose
of regulating the business of insurance.” 15 U.S.C.
§ 1012. Since its passage, Congress has concluded that
“the business of insurance, and every person engaged
therein, shall be subject to the laws of the several
States which relate to the regulation or taxation of
such business.” 15 U.S.C. § 1012. As a result, every
State has comprehensive insurance regulation and
oversight capabilities.
At least 35 United States jurisdictions, including
States, territories, and the District of Columbia permit
licensing and regulation of captives. In each of these
domiciles, the applicable regulator has the authority to
grant an insurance license to a company, after
regulatory review and subject to ongoing oversight.
Many States have dedicated professional staff that
exclusively regulate captive insurance.

6
Robust Regulatory Standards
All domestic domiciles that regulate captive
insurance require each applicant for a license to
complete background checks, maintain certain capital
levels, and provide financial information on demand.
The vast majority also require annual review by
independent actuaries, as well as annual audits by
independent CPAs and/or examinations by the
regulator, among other requirements.
The standards and requirements that domestic
regulators impose on insurance companies, and on
captives in particular, are intended to protect
policyholders by ensuring solvency. The standards and
requirements are remarkably consistent across the
country, and address all aspects of insurance company
operation, including the subject of the insurance, the
characteristics of the insurance policies, and the
structure of reinsurance arrangements.
In the various United States captive jurisdictions,
the insurance regulators play a very active role in
regulating the captive insurance industry. See “Letter
from Utah Insurance Commissioner Todd E. Kiser to
the IRS Commissioner, dated January 27, 2017”
(attached hereto as Appendix B). For example, in
order to gain licensure in any United States captive
jurisdiction, every captive must submit an application
and a feasibility study prepared by a credentialed
actuary. Each jurisdiction’s insurance regulator closely
reviews and monitors each captive to determine
whether it is properly funded, has the necessary
liquidity, insures only appropriate risks, and prices its
premiums appropriately.

7
Captive Insurance Companies
Captive insurance is a highly regulated and
formalized type of risk management that has existed
for over 50 years, allowing companies, or groups of
companies, to better manage their own risk. It is a
common risk management tool utilized by a wide range
of public, private, and not-for-profit entities, including
colleges and universities, Fortune 500 companies, local
businesses, hospitals, manufacturers, religious and
community organizations, and virtually every other
type of business. Captive insurance covers an equally
diverse and important set of business risk profiles,
from property, general liability, product liability,
workers’ compensation, and medical stop loss
insurance, to business and supply chain interruption
and many other coverages.
Nearly 5,000 captives are domiciled in and
regulated by at least 35 States, demonstrating a
healthy and material industry in the United States. By
definition, a captive is a type of insurance company
formed under applicable state law that provides
insurance coverage to its owners and affiliates.
Captives can either be owned by one company or by
numerous unrelated entities, similar to a mutual
insurance company. Many of the aforementioned 5,000
captives are group captives or protected cell captives,
each of which houses the captive insurance programs
of any number of unrelated businesses. Indeed, there
are thousands of unique business organizations that
participate in captives.
Captives may take many forms. The simplest
structure is a “pure” or single-owner captive created by

8
a parent company to provide insurance to itself and its
affiliates. See C. Anastopoulo, “Taking No Prisoners:
Captive Insurance as an Alternative to Traditional or
Commercial Insurance,” 8 Ohio St. Entrep. Bus. L.J.
209, 213, 221-23 (2013). Even in this “pure” captive
arrangement, like third-party insurers, the captive
receives premiums from its parent company in
exchange for coverage. The only difference is that the
insured (the parent) controls the insurer (the captive).
Id., at 221-25 (outlining the various types of captives).
Captives provide several benefits over third-party
commercial insurers. In addition to more affordable
coverage, a captive can underwrite more customized
policies than those available on the open market. Id.,
at 216. With actuarial support, captives can tailor
deductible and premium amounts, coverage scope, and
risk tolerance because these insurers “address risk
positions for the parent based solely on the parent’s
actual risk exposure and history, rather than an
industry-wide calculation.” Id. This is especially
important for industries where ordinary commercial
insurers have a hard time evaluating the relevant
risks. Id., at 213-14, 216.
Captives also offer a more responsive claims
process. Id., at 216-17. Submitting claims to a
commercial insurer that has “the incentive to deny
claims or delay in paying claims” is time-consuming,
adversarial, and litigious. Id., at 217. By contrast, the
parent and captive have “the same incentive to pay the
claim from the captive’s reserves.” Id., at 216.

9
SUMMARY OF ARGUMENT
First, the Amici ask this Court to consider the
written data, views and arguments of the Amici that
Notice 2016-66 imposes a heavy burden on the public
and causes ongoing irreparable harm to the captive
insurance industry and its stakeholders.
Second, the APA requires an agency to allow for a
meaningful opportunity for public comment on the
proposed rule through the submission of written data,
views, or arguments. See 5 U.S.C. § 553(c). Further,
this Court has held that an agency is obligated to
respond to significant comments. See Perez v. Mortg.
Bankers Ass’n, 575 U.S. 92, 135 S. Ct. 1199, 1203
(2015). However, the Issuance of Notice 2016-66 by the
IRS did not comply with the APA. Such a result is
particularly concerning to the Amici, as this Court has
made clear that tax rules are subject to the same types
of review as other administrative regulations. See, e.g.,
Mayo Found. for Med. Educ. & Research v. United
States, 562 U.S. 44 (2011).
Had the IRS followed the APA, the concerns of the
Amici regarding the impact of Notice 2016-66 would
have been addressed. Because the IRS failed to follow
the APA, the Amici ask this Court to overturn the
decision of the Sixth Circuit.
Third, the AIA prohibits suits brought “for the
purpose of restraining the assessment or collection of
any tax,” 26 U.S.C. § 7421(a), and this Court recently
explained that the terms “assessment” and “collection”
do not extend to mere reporting requirements. Direct
Mktg. Ass’n v. Brohl, 575 U.S. 1, 8 (2015). The Amici

10
urge this Court to determine that the AIA does not
prevent pre-enforcement challenges to tax rules not
involving the assessment or collection of taxes.
ARGUMENT
I.

Impact of Notice 2016-66 on the Captive
Insurance Industry:
A. Notice 2016-66 imposes a heavy burden
on the public and causes ongoing
irreparable harm to the captive
insurance industry and its stakeholders.

The IRS claims that Notice 2016-66 is necessary to
identify which § 831(b) arrangements should be
identified specifically as tax “avoidance” transactions.2
In reality, however, Notice 2016-66 appears to be
designed to burden the industry and thereby diminish
its size and scope. Notice 2016-66 requires essentially
all captives making the § 831(b) election, their owners,
the insured operating entity(ies) and owners, and any
reinsurer, to submit IRS Form 8886, Reportable
2

It has long been accepted that taking advantage of the tax code
to lower one’s taxes is perfectly acceptable. “Any one may so
arrange his affairs that his taxes shall be as low as possible; he is
not bound to choose that pattern which will best pay the Treasury;
there is not even a patriotic duty to increase one’s taxes.” Gregory
v. Helvering, 69 F.2d 809, 810 (2d Cir. 1934). Further, the Sixth
Circuit rejected the IRS’s substance-over-form doctrine to
restructure a transaction where the Internal Revenue Code
sections at play had the sole purpose of tax avoidance. See Summa
Holdings, Inc. v. Commissioner of Internal Revenue, 848 F.3d 779,
789 (6th Cir. 2017). The Sixth Circuit also stated that if such
results were unintended, it was within Congress’ power to correct
it. Id., at 789-90.

11
Transaction Disclosure Statement. In addition, socalled “material advisors,” like the Petitioner, must file
Form 8918, Material Advisor Disclosure Statement.
Although blank copies of Form 8886 are a mere two
pages in length, the completed form can be extremely
long and complicated. In fact, by the IRS’ own
estimate, Form 8886 takes more than twenty-one
hours, i.e., over half of a standard workweek, to
complete. See IRS, Instructions for Form 8886, at 7,
available at https://www.irs.gov/pub/irspdf/i8886.pdf. For some businesses, including many of
the Amici’s members, this presents a very heavy new
paperwork expansion. If each of the estimated 5,000
captive members of the Amici spent 21.5 hours
preparing Form 8886, they would collectively spend
over 100,000 hours per year complying with Notice
2016-66. And these figures do not include all of the
multiple owners, individuals and holding companies
that must fill out Form 8886. With them included, the
amount of time to complete all of the Form 8886’s
would double or triple. Additionally, these numbers do
not include Form 8918 to be prepared and submitted by
advisors, such as captive managers, CPAs and lawyers,
on whom the burden is potentially prohibitive. At the
IRS’ estimated rate, an advisor who provides material
advice to only 52 captives would spend the equivalent
of approximately six months each year preparing the
paperwork associated with Notice 2016-66. For
example, SIIA surveyed hundreds of its captive
members and found that they had filed over 15,000
forms at a collective cost of $22,186,800, to comply with
Notice 2016-66. See “June 15, 2017 letter from SIIA to
Treasury Secretary Mnuchin,” available at

12
http://files.constantcontact.com/9d218c3c001/05dafb545f9b-4fba-b08e-512c318af2cb.pdf.
In contrast with this onerous burden, the actual
benefits of Notice 2016-66 to the IRS are likely to be
minimal when compared to the amount of information
gathered through the IRS audit process. The Amici are
aware of an extensive series of audits that the IRS is
conducting and has conducted over the last several
years.3 There are more than 500 docketed captive
insurance cases in Tax Court involving § 831(b). See
“Abusive tax shelters, trusts, conservation easements
make IRS’ 2019 ‘Dirty Dozen’ list of tax scams to
avoid,” (March 19, 2019), available at
www.irs.gov/newsroom/abusive-tax-shelters-trustsconservation-easements-make-irs-2019-dirty-dozen-listof-tax-scams-to-avoid. It is also estimated that there
are, or soon will be, several thousand captive insurance
arrangements under audit by the IRS. See IRS update
on “micro-captive insurance transactions,” available at
home.kpmg/us/en/home/insights/2020/01/tnf-irsupdate-on-micro-captive-insurance-transactions.html.

3

On January 31, 2020, the IRS Commissioner stated that the IRS
will “vigorously pursue those involved in these and other similar
abusive transactions going forward. . . Enforcement activity in this
area is being significantly increased. To that end, the IRS is
deploying additional resources, which includes setting up 12 new
examination teams . . . that will be working to address these
abusive transactions and open additional exams.” See IRS takes
next step on abusive micro-captive transactions; nearly 80 percent
accept settlement, 12 new audit teams established, available at
www.irs.gov/newsroom/irs-takes-next-step-on-abusive-microcaptive-transactions-nearly-80-percent-accept-settlement-12-newaudit-teams-established.

13
Further, at the end of 2018, it was estimated that there
were more than 3,200 active captive insurance
companies and 1,800 cells formed in the United States,
and more than 6,600 active captive insurance
companies and 3,200 cells formed in key jurisdictions
worldwide. See “U.S. Domestic Captive Domiciles as of
Year-End 2018,” attached hereto as Appendix A; and
“SRS Charts the Total Number of Active Captives for
2018,” available at www.captive.com/news/2019/02/
25/srs-charts-the-total-number-of-active-captives-for2018. This means that there are approximately 5,000
active captive risk bearing entities (captives including
cells) formed in United States jurisdictions, and
approximately 10,000 active risk bearing entities, not
all of which make the § 831(b) election, formed in key
jurisdictions worldwide as of 2018, the most recent year
for which data is currently available. Id. Assuming, on
the low end, that the several thousand captives
currently or soon to be under audit is approximately
2,000, the IRS is auditing an estimated number of
captive insurance arrangements equivalent to 40% of
the active captive risk bearing entities formed in the
United States, or 20% of the active captive risk bearing
entities formed in key worldwide jurisdictions. These
audits produce information on § 831(b) insurers at a
painstaking level of detail. See Appendix C (redacted
copy of an IRS Information Document Request form).
Further, it also should be noted that most, if not all, of
the information that the IRS seeks through compliance
with Notice 2016-66 is already available by virtue of
IRS Form 1120-PC, which each § 831(b) captive and
other property & casualty insurance companies are
presently required to file annually. See SIIA Letter to
Treasury Secretary Mnuchin Regarding Executive

14
Order 13789 –Identifying & Reducing Tax Regulatory
Burdens, Dated June 15, 2020, available at
http://files.constantcontact.com/9d218c3c001/05dafb545f9b-4fba-b08e-512c318af2cb.pdf.
The level of information required in these audit
request forms and 1120-PC Forms produces a far more
detailed and intricate level of information than must be
provided on the Form 8886. These audits ultimately
led to three decisions in the United States Tax Court
that decided against the taxpayer.4 Simply put, if the
IRS has not learned sufficient information to identify
an abusive transaction from its widespread audits of a
large percentage of the active captives formed
worldwide, from the 1120-PC Forms and from Tax
Court litigation, Notice 2016-66 will not make any
material difference in its regulatory efforts and
amounts to nothing more than an open-ended fishing
expedition.
In light of the extreme burden on the public and the
minimal benefit to the IRS, the Amici believe that the
actual purpose of Notice 2016-66 is not information
gathering, but rather to deter taxpayers from
participating in a lawful and beneficial industry. To
further bolster this argument, the Amici would point to
the timing of the Notice 2016-66 release. On December
18, 2015, the Protecting Americans from Tax Hikes Act
4

See Avrahami v. Commissioner, 149 T.C. 7 (T.C. Aug. 21, 2017),
Reserve Mechanical Corp. v. Commissioner, T.C. Memo. 2018-86
(T.C. June 18, 2018), and Syzygy Insurance Co., Inc., et al. v.
Commissioner, T.C. Memo. 2019-34 (April 10, 2019). Reserve
Mechanical Corp. v. Commissioner is currently under appeal to the
Tenth Circuit Court of Appeals.

15
(the “PATH Act”) was enacted.5 The PATH Act
included revisions to § 831(b) to increase the premium
threshold to qualify for the § 831(b) deduction from
$1,200,000 to $2,200,000, with annual inflation
adjustments. The PATH Act also included revisions to
§ 831(b) to add two specific ownership diversification
requirements. These new provisions went into effect
for tax years beginning after December 31, 2016. In
the wake of this expansion of the § 831(b) premium
threshold, the IRS response was to issue Notice 201666 on November 1, 2016, in an effort to discourage
captives from taking advantage of the then soon to be
effective newly congressionally authorized expanded
deduction. Indeed, notwithstanding that Congress
gave the IRS the authority through the PATH Act to
issue guidance to help prevent abuse, the IRS has
failed to do so more than four (4) years later, despite
repeated good faith requests from the captive industry
for such guidance.
Since taking effect, Notice 2016-66 has inflicted
immediate and irreparable harm on the captive
insurance industry. Apart from the substantial burden
of compliance discussed above, Notice 2016-66
threatens to stigmatize the Amici and their members,
and intimidate legitimate businesses and citizens from
engaging in activity that Congress has expressly
declared lawful, most recently in the PATH Act and the

5

Joint Committee on Taxation, Technical Explanation of the
Revenue Provisions of the Protecting Americans from Tax Hikes Act
of 2015, House Amendment #2 to the Senate Amendment to H.R.
2029 (Rules Committee Print 114-40), (JCX-144-15), December 17,
2015 (hereinafter, “PATH Act”).

16
Consolidated Appropriations Act of 2018, Pub. L.
115–141. See the PATH Act, 129 Stat. 3106-08. The
IRS has long cast aspersions on § 831(b) captives by
including them on its annual “Dirty Dozen” list of
supposed “tax scams.” See “Internal Revenue Service,
Abusive tax shelters, trusts, conservation easements
make IRS’ 2019 ‘Dirty Dozen’ list of tax scams to avoid”
(March 19, 2019), available at www.irs.gov/newsroom/
abusive-tax-shelters-trusts-conservation-easementsmake-irs-2019-dirty-dozen-list-of-tax-scams-to-avoid.
Presumably, Congress would not have authorized
§ 831(b) if it thought that all or most uses of that
section would amount to a tax scam.6
The IRS has explained that the problem lies with
“abusive” uses of § 831(b), under which insureds pay
inappropriately high premiums or receive insurance for
harms that have little or no risk of materializing. Id.
Under Notice 2016-66, however, the IRS has declared
that essentially every captive making the § 831(b)
election, including legitimate non-abusive captives, are
subject to the reporting requirement and present “the

6

Approximately two months after the Supreme Court granted
certiorari to hear this case, on July 16, 2020, the IRS removed
micro-captive insurance transactions from its annual “dirty dozen”
list while promising that an upcoming series of press releases will
emphasize the illegal schemes and techniques businesses and
individuals use to avoid paying their lawful tax liability, including
such scams as abusive micro captives. See “IRS unveils ‘Dirty
Dozen’ list of tax scams for 2020; Americans urged to be vigilant to
these threats during the pandemic and its aftermath,” available at
https://www.irs.gov/newsroom/irs-unveils-dirty-dozen-list-of-taxscams-for-2020-americans-urged-to-be-vigilant-to-these-threatsduring-the-pandemic-and-its-aftermath.

17
potential for tax avoidance or evasion.” Id. In other
words, Notice 2016-66 casts a cloud of suspicion over
every entity insured by a § 831(b) captive, even when
it is clear that the captive provides appropriate
insurance at actuarially-justified premiums. Because
Notice 2016-66 implicates legitimate captives, it
continues to provide a clouded view of what the IRS
would consider to be proper versus improper
structures. Because of this stigma, Notice 2016-66 has
intimidated, and will continue to intimidate, taxpayers
to forego lawful activity out of fear of reprisals from the
IRS.
To compound the issue, on March 20, 2020, the IRS
sent Letter 6336 to at least fifty thousand (50,000)
taxpayers, and maybe many more. See “SIIA calls for
review of IRS’ ‘activities’ in response to Executive Order
for regulatory relief,” available at
http://www.captiveinsurancetimes.com/captiveinsur
ancenews/article.php?article_id=6905. Letter 6336
requires anyone who has taken a deduction or other tax
benefit related to micro-captive insurance on a prior
tax year return to report to the IRS, under penalty of
perjury, whether the taxpayer is still engaged in a
micro-captive insurance transaction, the last year for
which a deduction was taken and the date participation
ceased. In this letter, the IRS warned taxpayers that
it is increasing enforcement activity and that it would
take into account the taxpayer’s response, or lack
thereof, when considering future compliance-related
activity related to micro-captive insurance. Further,
the information that the IRS sought to obtain from this
Letter 6336 was duplicative and already in its

18
possession through the routine filing of 1120-PC
Forms.
Moreover, this Letter 6336 was issued four (4) days
into the National COVID-19 Emergency Declaration, at
a time when many businesses that own captives were
inaccessible or operating at a diminished capacity
because of the pandemic crisis. Even worse, the IRS
Letter originally required taxpayers to access and
report information about their captive insurance
programs by May 4, 2020, or face repercussions on
future compliance related activity for failing to comply.
After much pushback to Treasury Secretary Mnuchin,
the IRS extended the time to respond to Letter 6336 by
one month to June 4, 2020. With stay-at-home and
shelter-in-place orders in place for many cities and
states until the end of May or later, many of these
taxpayers may not have even been able to access their
records or professional advisors in order to comply with
the requirement within the short one-month extension,
not to mention risking their health and safety because
of the pandemic.
And perhaps most significantly, captives actually
have helped businesses by providing coverage for
business interruption claims caused by the pandemic.
While virtually all business interruption insurance
policies written in the traditional insurance
marketplace contain exclusions for COVID or similar
viruses, captives have the flexibility of designing
coverages to help businesses respond to this crisis.
And indeed, many captives have paid such claims in
the last few months, and numerous claims filings are
predicted. See “Post-COVID-19, Some Businesses May

19
Look to Captives for BI Solutions, Observers Say,”
available at https://media.cicaworld.com/wpcontent/uploads/2020/05/Post-COVID-19-SomeBusinesses-May-Look-to-Captives-for-BI-SolutionsObservers-Say.pdf. See also “Once Scrutinized, an
Insurance Product Becomes a Crisis Lifeline,” available
at https://www.nytimes.com/2020/03/20/yourmoney/coronavirus-insurance-small-business.html.
Collectively, the stigma and fear engendered by
Notice 2016-66, along with the substantial costs of
compliance, threaten to stifle the captive insurance
industry in many states with captive insurance laws.
The Amici estimate that a significant percentage of the
stand-alone captives licensed by the states and
ancillary jurisdictions qualify to file under § 831(b).
Consequently, if the IRS succeeds in its apparent goal
of discouraging the use of § 831(b), a significant
percentage of the captive insurance industry would be
threatened. This would not only be against the interest
of the Amici and their members, preventing businesses
from using captives as a legitimate risk management
tool; it would also be against the intent of Congress,
which passed § 831(b) and reaffirmed its use in the
PATH Act and the Consolidated Appropriations Act of
2018.
B. Notice 2016-66 has a chilling effect on
the captive insurance industry.
It appears that the actions of the IRS have started
to have their intended effect, as reports indicate that
Notice 2016-66 already has begun to affect the captive
insurance market negatively in the United States. For
example, in 2018, captives making the § 831(b) tax

20
election remained under the microscope, resulting in a
continued reduction in their numbers and a significant
drop in formation activity. See “SRS Charts the Total
Number of Active Captives for 2018,” available at
www.captive.com/news/2019/02/25/srs-charts-thetotal-number-of-active-captives-for-2018. Many of the
Amici’s members report that their clients have
abandoned or plan to abandon existing captives and/or
forego the creation of new ones since Notice 2016-66
took effect. Other members of the Amici have ceased
formation of any captives that utilize § 831(b) because
of the heightened scrutiny and regulatory burden
imposed by Notice 2016-66. The Amici are also aware
of multiple audits of captives or owners, many of which
can cost in excess of $250,000 to defend, especially if
litigation ensues. In light of these risks and the
clouded view of what the IRS would consider to be a
legitimate § 831(b) captive, many insurance
professionals can no longer recommend the formation
of § 831(b) captives in good faith unless their clients are
willing to embrace the substantial costs of complying
with Notice 2016-66 and the risk associated with an
audit.

21
II.

The APA should apply to Notice 2016-66,
and because there was no meaningful
opportunity to comment on the proposed
rule through the submission of written
data, views, or arguments, Notice 2016-66
should be declared invalid.
A. The APA serves as a conduit for public
input that permits agencies to craft the
wisest rules.

The APA provides that “[a] person suffering legal
wrong because of agency action, or adversely affected
or aggrieved by agency action within the meaning of
the relevant statute, is entitled to judicial review
thereof.” 5 U.S.C. § 702. The APA further empowers
this Court to “hold unlawful and set aside agency
action, findings, and conclusions found to be ... without
observance of procedure required by law.” 5 U.S.C.
§ 706(2)(D). Pursuant to the APA, “rules” promulgated
by an agency must be published in accordance with
notice-and-comment procedures. 5 U.S.C. § 553. An
agency’s failure to comply with notice-and-comment
procedures is grounds for invalidating the rule.7
A “rule,” for purposes of the APA, is defined so
broadly as to include virtually any statement an agency
may make. A “rule” is created when an agency makes

7

Neither exception to the APA’s notice-and-comment provision
applies here. The so-called “interpretive rule” and “good cause”
exceptions, authorized by 5 U.S.C. §§ 553(b)(A) and (B), (d)(l) and
(d)(3), are “narrow,” to be used only “sparingly.” Perez v. Mortgage
Bankers Ass’n, 135 S. Ct. at 1203. Moreover, the IRS did not claim
any exception with respect to Notice 2016-66.

22
a statement of “general or particular applicability and
future effect designed to implement, interpret, or
prescribe law or policy or describing the organization,
procedure, or practice requirements of an agency.” 5
U.S.C. § 551(4). The APA defines “rule making” as the
“process for formulating, amending, or repealing a
rule.” Id., at § 551(5).
Rules that must be promulgated according to the
APA’s notice-and-comment process are called
“legislative-type rules.” Chrysler Corp. v. Brown, 441
U.S. 281. 302 (1979) (referring to non- interpretative
rules as “substantive” or “legislative-type” rules). For
the purposes of the APA, there is a distinction between
legislative rules and interpretive rules. Although there
is no bright line differentiating legislative from
interpretive rules, courts have provided some broad
guidance. See Friedrich v. Secretary of Health &
Human Servs., 894 F.2d 829, 834 (6th Cir. 1990). “An
interpretative rule simply states what the
administrative agency thinks the statute means, and
only ‘reminds’ affected parties of existing duties. ... On
the other hand, if by its action the agency intends to
create new law, rights or duties, the rule is properly
considered to be a legislative rule.” General Motors
Corp. v. Ruckelshaus, 742 F.2d 1561, 1565 (D.C. Cir.
1984) (as adopted by the Sixth Circuit in Friedrich, 894
F.2d at 834).
Generally, a legislative rule is “one affecting
individual rights and obligations,” whereas an
“interpretive rule is a general statement of policy [that]
advise[s] the public of the agency’s construction of the
statutes and rules which it administers.” Chrysler

23
Corp., 441 U.S. at 302, n. 31 (citing the Attorney
General’s Manual on the APA). “The difference
between legislative and interpretative rules has to do
in part with the authority (law-making versus lawinterpreting) under which the rule is promulgated.”
Dismas Charities, Inc. v. United States Department of
Justice, 401 F.3d 666, 679 (6th Cir.2005) (citations
omitted). “For purposes of the APA, substantive rules
are rules that create law, while in contrast interpretive
rules merely clarify or explain existing law or
regulations and go to what the administrative officer
thinks the statute or regulation means.” Id. (quoting
First National Bank v. Sanders, 946 F.2d 1185, 118889 (6th Cir. 1991)).
In other words, if the rule has an “actual legal
effect,” it is a legislative rule. Ohio Coal Ass’n v. Perez,
S.D. Ohio No. 2: l 4-cv-2646, 2016 U.S. Dist. LEXIS
78655, at *53 (June 16, 2016) (quoting Nat’l Mining
Ass’n v. McCarthy, 758 F.3d 243, 252 (D.C. Cir. 2014)).
A rule has legal effect when, “in the absence of the
rule[,] there would not be an adequate legislative basis
for enforcement action or other agency action to confer
benefits or ensure the performance of duties.” Id. at
*54 (quoting Am. Mining Cong. v. Mine Safety &
Health Admin., 995 F.2d 1106, 1112, 302 U.S. App.
D.C. 38 (D.C. Cir. 1993)).
Interpretive rules are statements as to what an
agency thinks a statute or regulation means; it is not
binding on a court, only on an agency. Dismas
Charities, Inc., at 681. Regardless of the precise
language, the basic distinction is this: whereas a
legislative rule requires something new of those the

24
rule affects, an interpretive rule merely restates
existing duties, albeit slightly differently or clearer
than originally stated by the statute or regulation.
Fertilizer Institute v. United States Environmental
Protection Agency, 935 F.2d 1303, 1307-08 (D.C. Cir.
1991); United States v. Picciotto, 875 F.2d 345, 347-48
(D.C. Cir. 1989) (“rules that merely restate existing
duties” are interpretive).
Under the APA, when an agency proposes a new
rule that is not merely interpretive in nature, it must
comply with a four-step notice-and-comment procedure.
See Perez v. Mortgage Bankers Ass’n, 135 S. Ct. 1199,
1203 (2015).
The APA’s four-step notice-and-comment regime
requires the following:
(a)

First, the agency must issue a “general notice
of proposed rulemaking” that shall be
published in the Federal Register (5 U.S.C.
§553(b)) “not less than 30 days before its
effective date.” Id.

(b)

Second, “the agency shall give interested
persons an opportunity to participate in the
rule-making through submission of written
data, views or arguments.” Id. at § 553(c).

(c)

Third, the agency “must consider and
respond to significant comments received
during the period for public comment.” See
Perez, at 1203.

(d)

Fourth, when the agency files the final rule,
it shall include in the rule’s text “a concise

25
general statement of [its] basis and purpose.”
5 U.S.C. § 553(c).
Notice 2016-66 is a legislative rule, not an
interpretive rule. It does much more than restate
existing duties; it creates duties where none existed.
Prior to Notice 2016-66, participating in or being a
material advisor to a micro-captive transaction did not
trigger the duties required of those who engage in
reportable transactions. It does not simply “interpret”
a statute or regulation. Rather, it imposes substantial
new responsibilities upon taxpayers, under penal
threat. Only because of Notice 2016-66 do reportable
transaction duties fall on those who participate in or
are material advisors to § 831(b) captive transactions.
Thus, Notice 2016-66 is a legislative rule.
Congress gave the IRS the power to define
“reportable transactions,” and only through the proper
exercise of that power do the duties and potential
penalties associated with such transactions apply.
Thus, it has legal effect; without it, there would be no
reportable transactions due to the government and no
basis for enforcement. Stated another way, without
Notice 2016-66 “there would not be an adequate
legislative basis for enforcement or other agency
action” against those who participate in or who are
material advisors to § 831(b) captive transactions. See
Id., American Min. Congress, 995 F.2d at 1112.
Although Notice 2016-66 included a mechanism for
the public to comment on how micro-captive
transactions “might be addressed in [future] published
guidance,” those comments were requested “on or
before January 30, 2017.” Thus, any future published

26
guidance would be of no use to taxpayers required to
comply before that deadline. Notice 2017-08, issued on
December 29, 2016, extended the filing date to May 1,
2017, but it added nothing further with respect to
public comment.
Although a number of trade
associations and individuals, including several of the
Amici, submitted comments to the IRS regarding
Notice 2016-66, they were not acknowledged, and such
comments had no effect whatsoever on the regulatory
paradigm outlined therein. As such, the IRS did not
follow in any way the APA’s public “notice and
comment” provisions before issuing Notice 2016-66,
making the publication of Notice 2016-66 both
arbitrary and capricious.
As courts have made clear, notice-and-comment
rulemaking serves a critical purpose in our political
system: it serves as a conduit for public input in order
for agencies to craft the wisest rules.
Dismas
Charities, Inc., at 680. That purpose is not served
when the agency unilaterally decides what the rule is;
instead, when making a rule, the agency should be
trying to determine what the wisest rule is. Id.
B. While recognizing that not all § 831(b)
transactions are abusive, Notice 2016-66
arbitrarily and capriciously applies to
essentially all § 831(b) transactions,
even though the IRS admits its lack of
information regarding the captive
insurance industry.
In Notice 2016-66, the IRS acknowledged its lack of
information regarding § 831(b) captive transactions:
“the Treasury Department and the IRS lack sufficient

27
information to identify which § 831(b) arrangements
should be identified specifically as a tax avoidance
transaction and may lack sufficient information to
define the characteristics that distinguish the tax
avoidance transactions from other § 831(b) relatedparty transactions.” Notice 2016-66, Introduction. Had
the IRS proceeded through the notice-and-comment
process, it could have gathered much, if not all, of the
information it lacks. Or it would have been alerted to
the onerous and unnecessary financial costs associated
with, and reputational damage caused by, making
virtually all § 831(b) captive dealings reportable
transactions. A proper regulatory decision ought to be
based upon the comments submitted and the actual
facts and information gathered as part of the notice
and comment process, as part of a transparent
regulatory system. Instead, the IRS chose to act first
and ask questions later.
Despite the regulation of captives by the United
States captive jurisdictions through numerous
insurance industry experts and professionals, and
despite failing to proceed through the notice-andcomment process, the IRS stated unequivocally that,
with regard to captives making the § 831(b) election,
“[t]he manner in which the contracts are interpreted,
administered, and applied is inconsistent with arm’s
length transactions and sound business practices,”
thereby effectively subjecting all captives making the
§ 831(b) election subject to Notice 2016-66. See Notice
2016-66. This type of broad, blanket aspersion about
captives making the § 831(b) election completely
supplants the judgment of numerous insurance
industry experts and professionals in the United States

28
captive jurisdictions when licensing and regulating
captives.
Members of the captive industry submitted
substantial comments on the PATH Act and Notice
2016-66, both before and after the issuance of Notice
2016-66. See, e.g., Letter from SIIA to the IRS, dated
October
17,
2016,
available
at
https://www.siia.org/files/0f5af4a0-5c12-4dc5-aa0eb3cd6d9cfd08.pdf, which requested guidance on the
PATH Act; and the SIIA Comment Letter to the Acting
Secretary of the Treasury and the IRS Commissioner,
dated January 30, 2017, available at
https://www.siia.org/files/News/Notice_2016-66__SIIA_Comment_Letter_-_Final_.pdf. Even captive
insurance regulators submitted comments on Notice
2016-66. See Appendix B, in which the Utah
Insurance Commissioner submitted comments to the
IRS regarding the burden of Notice 2016-66 on the
captive insurance industry. Unfortunately, these
comments, along with those of many other interested
taxpayers, did not become a part of any rule-making
process; they simply fell upon deaf ears. The IRS failed
to respond to any of these comments. Had the IRS gone
through the notice-and-comment process, the IRS
would have had the opportunity to engage with the
captive insurance industry to acquire the information
the IRS admits that they lack.
Interestingly, in issuing Notice 2015-74, the IRS
recognized the value of state regulators. See Notice
2015-74, available at www.irs.gov/pub/irs-drop/n-1574.pdf. In Notice 2015-74, the IRS stated that certain
exotic financial arrangements designed to convert

29
short-term capital gain and/or ordinary income into
long-term capital gain through contractual
manipulations (“basket contracts”) were “transactions
of interest.” However, Notice 2015-74 excluded basket
contracts that are “subject to regulations by a
comparable regulator.” Id. By issuing Notice 2016-66,
the IRS essentially disregarded the comments of state
insurance commissioners and supplanted the role of
the state Departments of Insurance as regulators of the
captive industry. Notwithstanding that Notice 2015-74
excluded “transactions of interest” that were otherwise
subject to regulation, by issuing Notice 2016-66, the
IRS seemingly chose to act in a completely arbitrary
and capricious manner by admitting that it did not
have sufficient information to identify which § 831(b)
arrangements should be identified specifically as tax
avoidance transactions, while ignoring comments from
the captive insurance industry and state insurance
commissioners and simultaneously targeting all
captives making the § 831(b) election.
III.

Information gathering is a phase of tax
administration procedure that occurs
before the assessment of a tax, and the AIA
should not apply.

The AIA provides that “no suit for the purpose of
restraining the assessment or collection of any tax shall
be maintained in any court by any person, whether or
not such person is the person against whom such tax
was assessed.” 26 U.S.C. § 7421(a). This statute
“protects the Government’s ability to collect a
consistent stream of revenue, by barring litigation to
enjoin or otherwise obstruct the collection of taxes.

30
Because of the AIA, taxes can ordinarily be challenged
only after they are paid, by suing for a refund.” Nat’l
Fed. of Indep. Bus. v. Sebelius, 567 U.S. 519, 543
(2012), citing Enochs v. Williams Packing & Nav. Co.,
370 U.S. 1, 7–8 (1962).
The present challenge to Notice 2016-66 by the
Petitioner seeks to restrain the requirement to report
information to the IRS before a taxpayer or material
advisor has become subject to any civil or criminal
penalties simply for failure to comply with Notice 201666. The District Court and the Sixth Circuit Court of
Appeals ruled that the Internal Revenue Code treats
the penalty for not complying with Notice 2016-66 as a
tax, and that the AIA therefore bars this suit. See CIC
Services, LLC v. IRS, 2017 WL 5015510 (E.D.
Tennessee), CIC Services, LLC v. IRS, 925 F.3d 247
(6th Cir. 2019); CIC Services, LLC v. IRS, 936 F.3d 501
(6th Cir. 2019).
The Amici believe that the text of the case law on
the pertinent statutes suggests otherwise. The AIA
applies to suits “for the purpose of restraining the
assessment or collection of any tax.” 26 U.S.C.
§ 7421(a). In the present case, the Plaintiff does not
seek to enjoin the enforcement of a tax, but rather to
enjoin the IRS from information gathering pursuant to
the requirements of 26 U.S.C. §§ 6111 and 6112 of the
Internal Revenue Code. 26 U.S.C. §§ 6111 and 6112
cannot rightly be described as either a tax or a penalty,
but as statutes requiring the gathering of information.
Congress can describe something as a penalty but
direct that it nonetheless be treated as a tax for
purposes of the AIA. See Sebelius, 567 U.S. at 544. For

31
example, 26 U.S.C. § 6671(a) provides that “any
reference in this title to ‘tax’ imposed by this title shall
be deemed also to refer to the penalties and liabilities
provided by” subchapter 68B of the Internal Revenue
Code. Id. “Penalties in subchapter 68B are thus
treated as taxes under Title 26, which includes the
Anti-Injunction Act.” See id., at 544-545. However, the
requirement to gather information found in 26 U.S.C.
§§ 6111 and 6112 is not in subchapter 68B of the Code.
Nor does any other provision state that references to
taxes in Title 26 shall also be deemed to apply to the
requirement to gather information pursuant to 26
U.S.C. §§ 6111 and 6112. As the Supreme Court
explained in Direct Marketing, “information gathering”
such as the requirement to provide information
pursuant to Notice 2016-66 is “a phase of tax
administration procedure that occurs before
assessment … or collection.” See Direct Mktg. 135 S.
Ct. at 1129-31 (2015).8
The Amici urge the Court to rule in favor of the
Plaintiff on the basis Judge Nalbandian stated in his
dissent in CIC Services, LLC v. IRS, 925 F.3d 247 (6th
Cir. 2019). “[A] suit to enjoin the enforcement of a
reporting requirement is not a ‘suit for the purpose of
restraining the assessment or collection of any tax,’ 26
U.S.C. § 7421(a), … because the tax does not result

8

To support this narrow reading of the AIA, the Amici draw an
analogy between this situation and the one presented in Dep’t of
Homeland Sec. v. Regents of the Univ. of Cal., 591 U.S. ___ (2020).
In that recent case, the Court narrowly construed 8 U.S.C.
§ 1252(b)(9) and (g) to allow review of an agency action under the
APA.

32
from the reporting requirement per se.” CIC Services,
LLC v. IRS, 925 F.3d 247, 259-261 (6th Cir. 2019)
(Nalbandian, J., dissenting). “The only way for the IRS
to assess and collect the tax is for a party to violate the
[reporting] requirement. So enjoining the [reporting]
requirement only stops the assessment and collection
of the tax in the sense that a party cannot first violate
the [reporting] requirement and then become liable for
the tax.” See id., at 261. To add to this point, the
Amici are unaware of any captive or material advisor
being penalized for failing to comply with Notice 201666. As such, there are currently no known penalties
owing to the IRS that could be enjoined.
CONCLUSION
For the foregoing reasons, the Amici urge the Court
to review closely the validity of the issuance of Notice
2016-66. The Amici filing this brief, while offering no
opinion on any other particular facts or structure of
any insurance program at issue or otherwise, believe
the IRS did not allow a meaningful opportunity to
comment on Notice 2016-66 and failed to respond to the
following significant industry concerns:
I.
Impact of Notice 2016-66 on the Captive
Insurance Industry:
A. Notice 2016-66 imposes a heavy burden on
the public and causes ongoing irreparable harm to the
captive insurance industry and its stakeholders; and
B. Notice 2016-66 has a chilling effect on the
captive industry.

33
II.
The APA should apply to Notice 2016-66, and
because there was no meaningful opportunity to
comment on the proposed rule through the submission
of written data, views, or arguments, Notice 2016-66
should be declared invalid:
A.
The APA serves as a conduit for public
input that permits agencies to craft the wisest rules;
and
B. While recognizing that not all § 831(b)
transactions are abusive, Notice 2016-66 arbitrarily
and capriciously applies to essentially all § 831(b)
transactions, even though the IRS admits its lack of
information regarding the captive insurance industry.
III.
Information gathering is a phase of tax
administration procedure that occurs before the
assessment of a tax, and the AIA should not apply.
Respectfully submitted,
WILLIAM YOUNG WEBB
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills
Boulevard
Aberdeen, NC 28315
(910) 944-9555

K. SCOTT HAMILTON
Counsel of Record
KEVIN DOHERTY
TONY GREER
DICKINSON WRIGHT PLLC
500 Woodward Avenue
Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com

Counsel for Amici Curiae
Dated: July 22, 2020

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A U.S. Captive Domiciles . . . . . . . . App. 1
Appendix B Letter from the State of Utah
Insurance Department to the
Honorable John Koskinen dated
January 27, 2017 . . . . . . . . . . . . . App. 3
Appendix C Audit Document Request . . . . . . . App. 7

App. 1

APPENDIX A
See Image Next Page

App. 2

App. 3

APPENDIX B

January 17, 2017
The Honorable John Koskinen
Commissioner
Internal Revenue Service
1500 Pennsylvania Avenue, NW
Washington, D.C. 20224
Dear Mr. Koskinen,
I write today regarding IRS Notice 2016-66 (“the
Notice”) issued on November 1st of this year. The Notice
labels most captive insurance arrangements that make
the tax § 26 U.S.C. 831(b) election as “transactions of
interest” and subject to new requirements and
penalties. Because of the increased burden on small
business, statutory ambiguity, absence of regulatory
guidance and negative impacts the Notice has on
taxpayers in Utah, we respectfully request the Notice
be retracted.

App. 4
The captive industry is an important industry for Utah.
Utah regulates over 500 captive insurance entities,
many of which take the §831(b) election and would be
subject to the Notice. The Utah Insurance Department
follows the captive regulatory framework standards set
out by the National Association of Insurance
Commissioners. Each Utah captive must meet and
maintain State-established capital, surplus, and
reserve requirements, and is required to have an
annual audit by an approved independent CPA firm
and an annual actuarial review by an approved
independent actuary. Additionally, Utah domiciled
captive insurers are required to be managed only by
approved management firms, and prides itself on
having a tough but fair regulatory environment for all
businesses.
I believe the Notice will negatively affect wellintentioned taxpayers that are trying to follow all of
the rules. The Notice will have a chilling effect on small
businesses that wish to manage their risks through a
captive insurer, just like their larger Fortune 500 sized
competitors do. While we understand the IRS’ need to
identify and stop tax avoidance schemes, it is our hope
that the Service can collect this information in a less
burdensome manner or retract this Notice entirely and
use the significant amount of data it has already
collected.
In December 2015, I was fortunate to work with
Senator Hatch’s Office when Congress changed the
§831(b) tax law by increasing the premium threshold
and adding new requirements aimed at restricting
ownership options and limiting estate planning. As

App. 5
part of this, Congress specifically requested Treasury
and the IRS write reporting guidance so the captive
insurance industry will be able to comply with the new
requirements, which took effect January 1, 2017.
Nearly a year later, no such guidance was issued.
While the captive industry has yet to receive this
guidance, it concerns us even more that the IRS took
the additional step of issuing the Notice without
gauging the impact of the recent legislative changes or
providing guidance.
The immediate issue is that thousands of taxpayers
who are owners of small and medium-sized business
will be subjected to additional financial and regulatory
burdens under the Notice’s required compliance filings
with significant non-compliance penalties.
Furthermore, the vast majority of data requested has
already been reported to the IRS through the normal
tax filing process and other Information Document
Requests (IDRs). Requesting duplicative information
already in the IRS’s possession through multiple
sources, and in such a short timeframe, seems
unreasonable to my constituents, and other taxpayers.
Since the Service needs to update the annual insurance
company tax return forms anyway to collect the
ownership information required as part of the
December 2015 law change, I suggest that the better
solution is that the Service considers using this
opportunity to request on the updated tax return any
additional information that it deems necessary to
identify abuse. This approach avoids taxpayers having
to provide the same information twice to the Service,
avoids subjecting rule abiding business owners to

App. 6
arduous new requirements, and allows the Service to
collect any information it deems needed to identify
abuse. After the Service reviews the tax return
information, if further action is warranted, then that is
a more appropriate time to issue a narrowly tailored
Notice focused on specific abuses.
On behalf of impacted business owners, I respectfully
request retraction of Notice 2016-66.
Thank you in advance for your consideration, please
contact Travis Wegkamp, Captive Insurance Director,
in my office should you wish to discuss further. He may
be reached directly by phone at 801-537-9294 or email
at twegkamp@utah.gov.
Sincerely,
s/________________________
TODD E. KISER
Insurance Commissioner
cc: Sen. Orrin Hatch
Sen. Mike Lee
Rep. Rob Bishop
Rep. Jason Chaffetz
Rep. Mia Love
Rep. Chris Stewart

App. 7

APPENDIX C

Description of documents requested
Tax Period(s):

201112

*Please be advised that the 2012 tax return has been
picked up for exam*
Provide the·following documentation for tax years 2011
and 2012.
Part I – Instructions and Definitions
Instructions
In responding to this Information Document Request
(“IDR”), all requests for documents should be construed
expansively rather than narrowly. All documents
produced should include all attachments, exhibits,
addendums, and appendices.
If XXXXXXXX does not produce a requested document,
it should state the efforts made to locate the requested
document. In addition, XXXXXXXX must state whether

App. 8
the requested document ever existed, existed but was
destroyed, or existed but was misplaced.
Please provide all hard copy documents and
Electronically Stored Information (ESI) formatted for
Concordance/Opticon. All documents originating from
hard copy should be produced as TIFF or JPG named
and branded with the Bates number. All ESI sourced
documents (e.g. Email, Microsoft Word, Excel,
PowerPoint, etc.) should be provided as both Bates
branded TIFF or JPG and in “native” format named
according to Bates number. Provide E-mails or other
documents with embedded attachments linked in a way
that makes it clear that the documents are related.
Documents should be de-duplicated and produced in
color where necessary, with custodian, source and other
information included as described in the attached
addendum. Please remove any password protection or
encryption from the individual files, or provide any
passwords, encryption keys or certificates necessary to
view the files.
These documents may be produced in read-only form on
CD, DVD, or hard drive. To ensure readability of any
requested document in electronic format, provide the
PDF or TIFF files with an image resolution of at least
300 dots per inch (dpi). To the extent that any
electronic indexes or other listings relating to the
requested documents are created in preparation for
submitting them to the Internal Revenue Service,
please provide that information with your response to
assist in organizing and reviewing the documents.
The attached
guidelines.

addendum

provides

additional

App. 9
Definitions
The following definitions apply to this IDR:
a. For the purpose of this request, the words
“documents,” “records” or “data” refer to any
materials of any kind that are written, printed,
typed, reproduced graphically, visually, aurally,
electronically, or by any other means, including
but not limited to:
• Contracts, agreements, plans, papers,
summaries, opinions, reports, commentaries,
communications, correspondence,
memoranda, minutes, notes, comments,
messages, studies, graphs, diagrams,
photographs, charts, projections, tabulations,
analyses, questionnaires and responses, work
papers, data sheets, statistical or
informational accumulations, computer
databases, computer disks and formats, data
processing cards or worksheets, telexes,
telegrams, teletypes, cables, facsimiles,
instant messages, voice mail, and similar and
related documents, data, and materials;
• Video and/or audio tapes, cassettes, films,
microfilm, video files, sound files, and all
other information stored or processed by
means of data processing equipment and
capable of being retrieved in electronic,
printed, or graphic form;
• Computer stored and generated documents
or data, including but not limited to,
electronic mail (commonly referred to as “e-

App. 10
mail”) and attachments, word processing
documents, and spreadsheets;
• Computer database information (including
metadata) from document management
programs or systems that track or control
electronic documents described above.
b. XXXXXX includes any current or former
employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
c. XXXXXX Insurance Company, Ltd. includes any
current or former employee, officer, principal,
director, shareholder, partner, member,
consultant, manager, associate, staff employee,
independent contractor, agent, attorney, or other
representative.
d. XXXX means XXXXXX Law Offices XXXXXX
and XXXXXX includes any current or former
employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
e. “Fronting Carrier #1” means XXXXXX XXXXXX
a company licensed in XXXXXX “Fronting
Carrier #1” includes any trust in which XXXXXX
XXXXXX is the grantor or beneficiary, and any
current or former employee, officer, principal,
director, shareholder, partner, member,

App. 11
consultant, manager, associate, staff employee,
independent contractor, agent, attorney, or other
representative.
f. “Fronting Carrier #2” refers to XXXXXX
XXXXXX a company licensed in the state of
XXXXXX “Fronting Carrier 2” also includes any
trust in which XXXXXX XXXXXX is the settlor,
grantor, or beneficiary, and any current or
former employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
g. “Captive Insurance Program” means the
program pursuant to which (1) Fronting Carrier
#1 or Fronting Carrier #2 (“Insurers) issued
terrorism insurance to XXXXXX and other
insured parties, each of which had one or more
related captive insurance companies; and
(2) insurers ceded all risks of said terrorism
insurance to XXXXXX XXXXXX and captive
insurance companies related to other insured
parties. The Captive Insurance Program also
includes transactions in which XXXXXX
XXXXXX issued insurance policies directly to
XXXXXX
h. “Captive” means an insurance company or
captive insurance company to whom risks were
ceded by Fronting Carrier #1 or Fronting Carrier
#2 under the Captive Insurance Program and
who directly insured a related Insured
Participant.

App. 12
i. “Insured Participant” means a party that
purchased one or more terrorism insurance
policies from Fronting Carrier #1 and/or
Fronting Carrier #2 under the Captive
Insurance Program. To the extent that Insured
Participant has affiliates, subsidiaries,
brother/sister companies, or other similar
entities that were also parties to Insured
Participant’s insurance policies described above,
such affiliates, subsidiaries, brother/sister
companies, or other similar entities are also
included in the term “Insured Participant.”
“Insured Participant” includes any current or
former employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
j. The term “person” has the meaning as defined in
section 7701(a)(1) of the Internal Revenue Code
but also includes all of the person’s
representatives.
k. The term “related” person or entity includes the
persons specified in sections 267(b), 267(c), 318
and 707(b) of the Internal Revenue Code.
l. The term “identify” when used in connection
with a person means provide the name, title,
TIN (as defined in I.R.C. §7701(a)(41)), and
current or last known business and residential
addresses and telephone numbers.

App. 13
m. The term “risk management” means all
activities relating to identifying, calculating,
mitigating, reducing, or planning for potential
financial, business, or other risk or risk
exposure.
n. Part II - Documents/Information to be
produced:
1.

Produce all insurance policies and contracts for
insurance that XXXXXX purchased from
XXXXXXXXXX Fronting Carrier #1 and/or
Fronting Carrier #2 for any insurance period(s).
a. For each such insurance policy or contract
specify the amounts each party insured
under the policy paid toward the premium
cost.
b. For each such insurance policy or contract
produce documentation of XXXXXX
payments of premiums, including checks or
records of wire transfers, to XXXXXXXXXXX
Fronting Carrier #1, and/or Fronting Carrier
#2.

2.

Produce all insurance binders relating to
insurance that XXXXXX purchased from
XXXXXXXXXXXX Fronting Carrier #1 or
Fronting Carrier #2 for any insurance period(s).

3.

Produce all agreements between or among
XXXXXX, XXXXXXXX, XXXX and/or Fronting
Carrier #1 or Fronting Carrier #2.

App. 14
4.

Produce all agreements between XXXXXX and
XXXX including, but not limited to, engagement
letters and contracts.

5.

Produce documentation of all payments
XXXXXX made to XXXX under the agreements
referenced in the preceding request, including
checks and records of wire transfers.

6.

Describe how XXXXXX first was introduced to or
learned about:
a. XXXX
b. Fronting Carrier #1;
c. Fronting Carrier #2; and
d. the Captive Insurance Program.

7.

If XXXXXX first learned about any of the above
entities or program from one or more persons,
identify each such person and provide the
following:
a. Describe the nature of XXXXXX relationship
with such person;
b. Describe the communications XXXXXX had
with such person regarding XXXXXXXXXXX
Fronting Carrier #1, Fronting Carrier #2,
and/or the Captive Insurance Program;
c. Provide all documents reflecting or related to
the communications referenced in the
preceding request, No. 7. b., above;

App. 15
d. State whether such person receives or
received compensation from XXXX Fronting
Carrier #1, and/or Fronting Carrier #2.
8.

Describe all documents that mentioned
XXXXXXXXXXXX, Fronting Carrier #1, and/or
Fronting Carrier #2 that XXXXXX was provided
or otherwise obtained before XXXXXX began
buying insurance from XXXXXXXX Fronting
Carrier #1 and/or Fronting Carrier#2, including,
but not limited to, program descriptions,
circulars, brochures, handouts, advertisements,
educational materials, marketing materials,
sample contracts, sample policies, data or
statistical compilations, graphs, and/or charts.
For each such document:
a. Provide the document;
b. Describe the circumstances under which
XXXXXXXX obtained the document;
c. Identify the person who provided the
document to XXXXXXXX
d. State when the document was provided to
XXXXXXXX

9.

Provide each insurance policy, including riders
and any other attachments, which provided
insurance coverage to XXXXXXXX that was
issued by a company other than XXXXXXXXXX
Fronting Carrier #1 or Fronting Carrier #2 for
any insurance period or periods that began on or
after January 1, 2007.

App. 16
10.

Provide the name and address of each insurance
broker with whom XXXXXXXX consulted or had
business dealings during the period from
January 1, 2007 through December 31, 2012.

11.

Describe XXXXXXXX risk management during
2007 and each subsequent year through
December 31, 2012.

12.

Provide all documents outlining or describing
any aspect of XXXXXXXX risk management
during 2007 and each subsequent year through
December 31, 2012.

13.

Identify each employee, contractor, and advisor
who contributed to XXXXXXXX risk
management during the period from January 1,
2007 through December 31, 2012, and for each
such individual, describe:
a. The individual’s relationship with
XXXXXXXX e.g., employee or contractor;
b. The individual’s role and functions related to
risk management for XXXXXXXX
c. The time frame during which the individual
fulfilled the specified risk management roles
and functions;
d. The approximate amount of time per month
the individual spent performing the risk
management roles and functions;
e. Provide all documents related to or reflecting
each individual’s contributions to XXXXXXX

App. 17
risk management during the above-stated
period.
14.

With regard to each insurance policy or contract
referenced in request No. 1, above, describe all
losses that occurred during the 10 years
preceding purchase of that policy that would
have been covered under the policy if it had been
effective on the date of loss. For each such loss:
a. State when the loss occurred;
b. Specify the total cost of the loss to
XXXXXXXX;
c. Identify any insurance policies that paid
claims filed by XXXXXXXX with respect to
such loss and state the amounts paid;
d. Specify the amount that the policy
XXXXXXXX later purchased under the
Captive Insurance Program would have paid
if the policy had been effective as of the date
of loss;
e. Provide all records related to each loss.

15.

Identify each individual who participated in
XXXXXXXX decision to enter the Captive
Insurance Program and/or to renew
participation in each year subsequent to the
initial year.

16.

Describe all steps taken by XXXXXXXX to
determine whether to enter the Captive
Insurance Program and whether to renew
participation in each year subsequent to the

App. 18
initial year, including, but not limited to
research, feasibility or other studies, cost-benefit
analyses, cash flow analyses, cost comparisons,
meetings, consultation and/or hiring of
actuaries, brokers, and other specialists and
experts, data gathering, and loss projections.
17.

Provide all documents reflecting or related to the
steps taken by XXXXXXXX to determine
whether to enter the Captive Insurance Program
and whether to renew participation in each year
subsequent to the initial year.

18.

Describe all steps taken by XXXXXXXX to
determine whether to purchase each policy or
contract referenced in request No. 1, above,
and/or how much to pay for each policy or
contract, including, but not limited to, research,
feasibility or other studies, cost-benefit analyses,
cost comparisons, meetings. consultation and/or
hiring of actuaries, brokers, and other specialists
and experts, data gathering, and loss
projections.

19.

Provide all documents reflecting or related to the
steps taken by XXXXXXXX to determine
whether to purchase each policy or contract
referenced in request No. 1, above, and/or how
much to pay for each policy or contract.

20.

Provide all documents reflecting communications
between or among XXXXXXXX employees,
owners, principals, contractors, and/or advisors
regarding whether to enter the Captive
Insurance Program, whether to renew

App. 19
participation each year, and/or whether to
purchase each insurance policy or contract
referenced in request No. 1, above.
21.

Describe all oral communications between
XXXXXXXX and XXXX Fronting Carrier #1
and/or Fronting Carrier #2 that preceded
XXXXXXXX entering the Captive Insurance
Program, including:
a. When the communications occurred;
b. the parties to the communications; and
c. The general subject
communications.

matter

of

the

22.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

23.

Describe all oral communication between
XXXXXXXX and XXXX Fronting Carrier #1
and/or Fronting Carrier #2 that preceded
XXXXXXXX renewing participation in the
Captive Insurance Program in each year
subsequent to the initial year, including:
a. When the communications occurred;
b. the parties to the communications; and
c. the general subject
communications.

matter

of

the

App. 20
24.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

25.

Produce all documents exchanged among
XXXXXX and XXXXXXXXXXXXX Fronting
Carrier #1 and/or Fronting Carrier#2 preceding
XXXXXXXX entering the Captive Insurance
Program or renewing participation in the
program in each subsequent year. Such
documents include, but are not limited to:
a. Correspondence and e-mails;
b. records;
c. computations;
d. spreadsheets;
e. forms;
f. illustrations; and
g. draft or sample policies or contracts.

26.

Provide all applications for insurance XXXXXX
submitted to Fronting Carrier #1, Fronting
Carrier #2, and/or XXXXXXXXXXXX for any
insurance period.

27.

Describe all oral communications between
XXXXXX and XXXX Fronting Carrier #1,
Fronting Carrier #2, and/or XXXXXXXXXXXX
that preceded the issuance of each insurance
policy referenced in request 1, above, including:

App. 21
a. When the communications occurred;
b. the parties to the communications; and
c. the general subject
communications.

matter

of

the

28.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

29.

Produce all documents exchanged among
XXXXXX and XXXX Fronting Carrier #1,
Fronting Carrier #2 and/or XXXXXXXXXXXX
preceding the issuance of each insurance policy
or contract referenced in request No. 1, above.
Such documents include, but are not limited to:
a. Correspondence;
b. records;
c. verification of loss history;
d. forms;
e. illustrations; and
f. draft or sample policies or contracts.

30.

Identify each person who played a role in
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies and/or contracts
referenced in request No. 1, above, and for each
person:

App. 22
a. State the person’s relationship with
XXXXXXXX such as employee or contractor;
b. Describe the person’s credentials and
experience pertinent to insurance,
reinsurance, underwriting, and law;
c. Describe specifically the person’s role with
respect to negotiating, reviewing, and/or
evaluating XXXXXXXX insurance policies;
d. State the time frame in which the person
provided assistance with respect to
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies;
e. Provide all documents related to the person’s
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies.
31.

State when each of the policies or contracts
referenced in request No. 1, above, was issued
and provided to XXXXXXXX
a. Provide all documents related to the issuance
and providing of the policies or contracts
referenced in request No. 1, above, to
XXXXXXXX including, but not limited to,
cover letters, correspondence, and emails.

32.

Describe all costs paid by XXXXXXXX in
conjunction with formation and/or
administration of XXXXXXXXXXXX

33.

Provide documentation, including checks and
records of wire transfers, of all payments
referenced in the preceding request.

App. 23
34.

Provide all documents related to formation of
XXXXXXXXXXXX including, but not limited to,
correspondence, memoranda, meeting notes,
proposals, and applications.

35.

Provide all claims, claim forms, and supporting
documentation XXXXXX submitted under the
insurance policies or contracts referenced in
request No. 1, above.

36.

Provide all documents reflecting or related to
payments by Fronting Carrier #1, Fronting
Carrier #2, and/or XXXXXXXXXXXX to
XXXXXX for each claim filed under the
insurance policies or contracts referenced in
request No. 1, above.

37.

Describe the Captive Insurance Program’s claim
adjustment processes.

38.

Provide all documents reflecting or related to the
claims adjustment process for each claim
XXXXXXXX submitted under the insurance
policies or contracts referenced in request No. 1,
above, including, but not limited to,
correspondence, documents exchanged during
the claims adjustment process; notes and
memoranda; analyses; settlement documents;
and documents describing or outlining claims
adjustment procedures.

39.

Identify all individuals who participated on
behalf of XXXXXX, XXXX Fronting Carrier #1,
Fronting Carrier #2, and/or XXXXXXXXXXXX in
the claims adjustment procedures under the
Captive Insurance Program.

App. 24
40.

For the period from January 1, 2007 through the
present, identify all of XXXXXX current and
former owners and state the percentage
ownership of each.

41.

For the period from January 1, 2007 through the
present, identify all of XXXXXX current and
former officers, directors, and principals.

42.

Provide all tax opinions or other documents on
which XXXXXX relied in claiming deductions for
premium payments under the Captive Insurance
Program on its federal income tax returns for
the taxable years 2011 and 2012.

43.

Identify all persons upon whose advice or
statements XXXXXX relied in claiming
deductions for premium payments under the
Captive Insurance Program on its federal
income tax returns for the taxable years 2011
and 2012.
a. Describe the advice or statements rendered
by each such person;
b. Specify the date(s) on which the advice or
statements were rendered;
c. Identify the individual(s) to whom the advice
or statements were rendered;
d. Provide all documents related to or reflecting
each such person’s advice or statements.

44.

Provide copies of all prior and subsequent year
Federal Income Tax returns filed by XXXXXXXX

App. 25
for which it participated in the Captive
Insurance Program.
45.

For taxable years ended 2011 and 2012 provide
the following:
a. Provide complete copy of financial
statements (either audited or compiled),
including all footnote disclosures.
b. Provide the following accountant’s work
papers, including but not limited to:
i. Chart of accounts and groupings
ii. Adjusting and closing entries
iii. Year-end working trial balance
iv. Year-end tax return work papers and
reconciliation schedules including all
Schedule M adjustments (including all of
the working papers for these
adjustments).
c. Provide the general ledger and/or detailed
trial balance. The general ledger details must
be complete and show ALL of the activity in
each account.
d. Provide an organizational chart. Please
include all foreign and domestic subsidiaries,
if applicable.
e. Provide corporate minutes.
f. Provide a description of XXXXXX activities.

App. 26
46.

Provide XXXXXX business plan and other
documents related to its goals, objectives, and
business strategies.

